No. 20-7819

 

In the Supreme Court of the United States

 

Theresa A. Logan,
Petitioner

Vv.

Town of Windsor, New York
Respondent

 

Affidavit of Service
Respondent’s Brief in Opposition to
Petitioner’s Petition for a Writ of Certiorari

 

MICHELE L. PRITCHARD, being duly sworn, deposes and says:

Tam an employee of the law firm of Coughlin & Gerhart, LLP, the attorneys of record for

the Respondent, Town of Windsor, New York.

That on the 29" day of April, 2021, I served the within Brief in Opposition to Petitioner’s

Petition for a Writ of Certiorari in the above-captioned matter on:
Theresa A. Logan, pro se
50 Williams Road
Windsor, New York 13865

by depositing a copy of the same, addressed to Petitioner, in a post-paid, properly addressed
wrapper, with the United States Postal Service, via first class mail.

That on the same date as above, I sent to this Court one (1) copy of the within Brief in
Opposition to Petitioner’s Petition for a Writ of Certiorari by first class mail and by submitting

the within Brief in Opposition to Petitioner’s Petition for a Writ of Certiorari electronically to

this Court’s electronic filing system.
All parties required to be served have been served.

I declare under penalty of perjury under the laws of the United States of America that the

foregoing is true and correct. Executed on April 29, 2021.

 

gar ( /

Sown to before me on day
of April, 2021

    

  

RONTTTA J. MCPHER
NOTARY PUBLIC, STATE OF NEW YORK

Registration No. 01MC6141
Qualified in Tloga Coun mf

  
     
    
